Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   Beneficiary Awareness    of HCFA
          Publications in 1995




                   JUNE GIBBS BROWN
                   Inspector   General

                        APRIL 1997
                       OEI-04-93-00152
                     OFFICE OF INSPECI-OR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law
95-452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.


                       Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the 

Office of Inspector General. It conducts short-term management and program 

evaluations (called inspections) that focus on issues of concern to the Department, the 

Congress, and the public. The inspection reports provide findings and 

recommendations on the efficiency, vulnerability, and effectiveness of departmental 

programs. 


The OEI’s Atlanta Regional Office prepared this report under the direction of Jesse J. 

Flowers, Regional Inspector General, and Christopher Koehler, Deputy Regional 

Inspector General. Principal OEI staff included: 


Region 
                                          Headquarters 

Betty Apt, Team Leader 
                          Winnie Walker, Program Specialist 

James Green, Contractor 
                         Stuart Wright, Program Specialist 

Jackie Watkins, Program Analyst 
                 Barbara Tedesco, Statistician 

Joe Townsel, Program Analyst 
                    Brian Ritchie, Technical Support 

Tammy Hipple, Statistician 




To obtain a copy of this report, call the Atlanta Regional Office at 404-331-4108.
                 EXECUTIVE                          SUMMARY

PURPOSE

To determine Medicare beneficiary awareness of Health Care Financing
Administration publications.

BACKGROUND

The Health Care Financing Administration (HCFA) publishes various booklets 

designed to help Medicare beneficiaries make informed health care decisions. The 

booklets are available from several sources, such as Social Security offices and senior 

citizen organizations. However, the department has little information on the extent          .

that beneficiaries know the booklets are available. 


As part of our 1995 survey to determine beneficiary satisfaction with Medicare, we 

asked beneficiaries about their awareness of the Medicare Handbook and eight other 

HCFA publications. The nine publications included the handbook and six booklets we 

reported on in 1994. 


FINDINGS 


Mmt beneficiari4s were aware of the Medicare Handbook

Three-fourths    of the beneficiaries   surveyed in 1994 and 1995 said they knew about the
Medicare Handbook.

In 1995, fewer   bttmq&kti     used the handbook than in 1994

In 1994, 58 percent of the beneficiaries who were aware of the handbook said they
had used it in the past year. This number significantly decreased to 38 percent in
1995.

Few benejZiz&       were aware of selected HCFA publications

  .	   Twenty-six percent of the Medicare beneficiaries who responded to our survey
       were aware of HCFA’s Guide to Health Insurance for People with Medicare
       Coverage.

  .	   Eighteen percent of the Medicare beneficiaries who responded to our survey
       were aware of HCFA’s booklet on Medicare and Other Health Benefits.

  .	   Ten percent of the Medicare beneficiaries who responded to our survey were
       aware of HCFA’s booklet on Medicare and Home Medical Equipment.



                                                i
  .	   Nine percent of the Medicare beneficiaries who responded to our survey were
       aware of HCFA’s booklet on How to Help Stop Medicare from Being Ripped Ofl

  .	   Eight percent of the Medicare beneficiaries who responded to our survey were
       aware of HCFA’s booklet on Medicare Hospice Benejits.

  .	   Seven percent of the Medicare beneficiaries who responded to our survey were
       aware of HCFA’s booklet on Medicare Coverage for Second Surgical Opinions.

  .	   Seven percent of the Medicare beneficiaries who responded to our survey were
       aware of HCFA’s Guide to Choosing a Nursing Home.

  .	   Five percent of the Medicare beneficiaries who responded to our survey were
       aware of HCFA’s booklet on Medicare and Coordinated Care Plans.

Mm btme@hh         do mt know how to obtainHCFA publications

Seventy-five percent of the beneficiaries   said they did not know how to obtain the free
publications.

RECOMMENDATIONS

We realize that awareness of the publications may depend on a beneficiary’s needs.
However, beneficiaries cannot benefit from HFCA’s guidance if they do not know the
information is available.

We recommend that HCFA (1) continue current efforts, as well as experiment with
new methods, to develop a more effective strategy to increase beneficiary awareness of
their publications, and (2) reinstate the listing of HCFA publications in the Medicare
Handbook, and provide instructions in the handbook on how beneficiaries can obtain
the publications.

AGENCY COMMENTS

The Assistant Secretary for Planning and Evaluation concurred with our 

recommendations. 


The HCFA Administrator concurred with our recommendation that HCFA should 

continue efforts to develop a more effective strategy to increase beneficiary awareness. 

He reported that HCFA has established an Internet site that lists available 

publications, and includes the text of each publication. 


The Administrator did not concur with our recommendation to reinstate a listing of 

HCFA publications in the Medicare Handbook. He stated that HCFA believes the 

1996 handbook contains a better option by providing a State-by-state listing of 




                                              ii
Medicare carriers, insurance counseling offices, and other organizations beneficiaries
can call through toll-free numbers to get publications.

We still believe it would be useful to list the publications as we recommended.
However, if that is not practical, we hope HCFA will consider mentioning in the
handbook that publications are available on various topics, such as choosing a nursing
home and Medigap insurance. Further, we suggest that the handbook inform
beneficiaries that the publications are available from the organizations listed. If
beneficiaries do not know the publications exist, they will not know to call these
organizations to get copies.




                                            ...
                                            111
                       TABLE                   OF         CONTENTS

                                                                                                                       PAGE




INTRODUCI’ION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 



FINDINGS

     Most Beneficiaries 
 Were Aware of the Medicare Handbook                              .............                  4

     Fewer Beneficiaries 
 Used the Handbook in 1995 .......................                                              4

     Few Beneficiaries 
 Were Aware of HCFA’s Other Publications                                .............             5

     Most Beneficiaries 
 Do Not Know How to Obtain Free Publications                                      .........      5


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 



AGENCYCOMMENTS                     ............................................ 8 



APPENDICES

     Responses to 1995 Survey of Medicare Beneficiaries                        . . . . . . . . . . . . . . . . . . . A-l

     HCFA Comments             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-l
                             INTRODUCTION

PURPO!SE

To determine Medicare beneficiary awareness of Health Care Financing
Administration publications.

BACKGROUND



Medicare is a Federal health insurance program for individuals age 65 and older and
for certain categories of disabled people. Authorized in 1965 by title XVIII of the
Social Security Act, Medicare paid benefits in 1995 totalling over $159 billion to
approximately 37.6 million beneficiaries.’ The Health Care Financing Administration
(HCFA) within the Department of Health and Human Services has responsibility for
the Medicare program.

HCFA hblications

HCFA publishes a Medicare handbook for beneficiaries that explains how the
Medicare program works and what the benefits are. HCFA also publishes various
booklets designed to help beneficiaries make informed health care decisions. The
booklets provide (1) guidance on Medicare coverage for specific services, such as
hospice and second surgical opinions, (2) advice on criteria beneficiaries should
consider in selecting services, such as nursing home care and supplemental health
insurance, and (3) tips that should alert beneficiaries to fraudulent activities.

HCFA publishes a new handbook every year, but generally mails it only to new
enrollees. Prior to 1995, the year of our survey, the last mailing to all beneficiaries
was in 1990. In 1996, the year following our survey, HCFA again mailed a new
handbook to all beneficiaries. HCFA officials now are considering the feasibility of
mailing a new handbook to all beneficiaries every year. The handbook and other
booklets are available upon request from several sources, such as Social Security
offices, insurance offices that process Medicare claims (called carriers), and senior
citizen organizations. However, the Department has little information on the extent
that beneficiaries know the booklets are available.




    ‘Health Care Financing Administration,   United States Department   of Health and Human Services.
Data compendium, March 1995.


                                                   1
In 1993, the   Office of Inspector General conducted a survey of Medicare beneficiaries
to determine    their awareness of the Medicare handbook and two booklets published
by HCFA?       In 1994, we conducted a similar survey of Medicare beneficiaries, and
asked about    their awareness of the handbook and seven booklets.3

In both surveys, we found that while most beneficiaries (about three-fourths)             were
aware of the handbook, less than a fourth knew about the booklets.

METHODS

In September 1995, we mailed a questionnaire to 1244 randomly selected Medicare
beneficiaries for whom Part B claims had been filed in Calendar Year 1994. We used
standard equations for estimating sample size with a binary response variable.

Beneficiary participation in the survey was voluntary. A total of 942 beneficiaries
returned completed questionnaires, for a response rate of 76 percent. Percentages in
the report are based on the number of people answering each question. Based on our
response rate, estimates are within 3.2 percent of the true value at the 95 percent
confidence level. The individual findings may be less precise, depending on the
number of beneficiaries who responded to specific questions. Appendix A shows
beneficiary responses to the questionnaire.

As part of our 1995 survey to determine beneficiary satisfaction with Medicare: we
asked beneficiaries about their awareness of nine HCFA publications. The nine
publications included the Medicare Handbook, and eight other HCFA publications.
The nine publications are described below.

   .    HCFA’s Medicare Handbook explains the Medicare program and benefits.

   .	   HCFA’s Guide to Health Insurance for People with Medicare Coverage booklet
        provides information on (1) Medicare coverage, (2) types of Medigap policies,
        and (3) tips for purchasing Medigap insurance.




   20ffice of Inspector General, United States Department of Health and Human Services.    Use of
Nursing Home and Medigap Guides. OEI-04-92-00481, May 1994.

   30ffke of Inspector General, United States Department of Health and Human Services. Beneficiary
Awareness of HCFA Publications. OEI-04-94-00141, June 1995.

   40ffice of Inspector General, United States Department   of Health and Human Services. Medicare
Beneficiq Satisfaction:1995. OEI-04-93-00150.


                                                  2
  .	   HCFA’s Medicare and Other Health Benefits booklet explains how Medicare
       coordinates with other insurance that beneficiaries may have, such as Medigap,
       employer health plans, and Workman’s Compensation.

  .	   HCFA’s Medicare and Home Medical Equipment booklet explains how
       Medicare pays for medical equipment beneficiaries use in their homes.

  .	   HCFA’s How to Help Stop Medicare from Being Ripped off booklet describes
       what beneficiaries can do to prevent Medicare fraud.

  .	   HCFA’s Medicare Hospice Benefits booklet explains (1) hospice services, (2)
       eligibility requirements, and (3) Medicare payments for hospice services.

  .	   HCFA’s Medicare Coverage for Second Surgical Opinions booklet provides
       information on (1) when beneficiaries should get second surgical opinions, (2)
       how to find physicians to give second surgical opinions, and (3) Medicare
       payments for second surgical opinions.

  .	   HCFA’s Guide to Choosing a Nursing Home booklet contains information on (1)
       factors to consider in selecting a nursing home, and (2) Medicare and Medicaid
       coverage of nursing home care.

  .	   HCFA’s Medicare and Coordinated Cure PZuns booklet contains information on
       managed health care plans (health maintenance organizations and competitive
       medical plans) that contract with HCFA to provide health care for Medicare
       beneficiaries.

erlpa?iYon to Ikvious surveys

During our 1993, 1994, and 1995 surveys, we asked Medicare beneficiaries similar
questions about the Medicare Handbook. We compare their responses in this report.

We asked Medicare beneficiaries similar     questions about two of HCFA’s publications
in our 1993, 1994, and 1995 surveys. In    1994 and 1995, we asked similar questions
about six of the publications. For those   publications on which we asked similar
questions in more than one survey year,    we calculated the percentage of responses so
that they were comparable from year to     year.

We have determined significant differences in responses to the 1994 and 1995 surveys
through the use of a t-test.


We conducted this inspection in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                             3

                               FINDINGS

MOSTBENEFICIARIES WERE AWARE OF THE MEDICARE fi?ANDBOOK

About three-fourths of the beneficiaries surveyed said they knew about the Medicare
Handbook. Table 1 illustrates that the percent of beneficiaries who knew of the
handbook has changed little since 1993.

                             TABLE 1
         BENEFICIARY AWARENESS OF TI-IEMEDICARE HANDBOOK
                                                                                            1

     ......   1993                       1994:                           1995          .;
              76%                        76%                             75%


FEWER BENEFICIARIES USED THE MEDICHRE IMNDBOOK THAN IN 1994

Table 2 shows that the number of beneficiaries who had used the Medicare Handbook
significantly declined in 1995.

Of the beneficiaries who had used the handbook, 94 percent thought the handbook
was helpful. Beneficiaries responded virtually the same in our 1993, 1994, and 1995
surveys.


                                 TABLE 2 

               BENEFICIARY USE OF THE MEDICARE HANDBOOK 



II                                        I        1993   I   1994   I     1995        I/


IPercent of Beneficiaries Aware of the
 Handbook Who Used It in Past Year
                                                   55%        58%          38%
                                                                                       I

In 1993, 1994, and 1995, half of the beneficiaries surveyed said they would refer to
their Medicare Handbook to get information about what Medicare pays for.

We hope to obtain additional information about beneficiary use of the handbook for
our survey about the 1996 Medicare Handbook.




                                              4

FEW BENEFICIARIES WERE AWARE OF HCFA’s OTHER PUBLICATIONS

Table 3 illustrates that from 5 to 26 percent of the 942 beneficiaries   responding to our
survey in 1995 were aware of HCFA’s other publications.

                                  TABLE 3 

                       AWARENESS OF HCFA PUBLICATIONS 



      ,. ..::
    ..
 .. .,     .::

 Guide to Health Insurance for People with Medicare              13%       24%      26%
 Coverage
 Medicare and Other Health Benefits                                *       14%      18%
 Medicare and Home Medical Equipment                               *        *       10%
 How to Help Stop Medicare from Being Ripped Off                   *        *        9%
 Medicare Hospice Benefits                                         *       9%        8%
 Medicare Coverage for Second Surgical Opinions                    *       9%        7%
  Guide to Choosing a Nursing Home                                9%       8%        7%
  Medicare and Coordinated     Care Plans                          *       6%        5%
  *If no percentages   are shown, we did not ask about the publication in that
  particular year.


The publications most familiar to beneficiaries related to insurance policies that
supplement Medicare. We realize that awareness of the other publications may
depend on a beneficiary’s needs. For example, it is understandable that a beneficiary
who has not needed surgery may not be aware of the publication on second surgical
opinions.


MOST BENEFICIARIES DO NOT KNOW HOW TO OBTAIN HCFA
PUBLICATIONS

Seventy-five percent of the beneficiaries   surveyed said they did not know how to
obtain HCFA’s free publications.

HCFA publications provide information that Medicare beneficiaries and their families
may use to make informed health care decisions. Publications such as the Medicare
Handbook and the Guide to Health Insurance for People with Medicare have broader


                                              5
applicability to beneficiaries. We noted that the rate of awareness for these
publications is higher than for other publications. We also realize that awareness of
some of the other publications, such as the booklet on choosing a nursing home, may
depend on a beneficiary’s needs. However, beneficiaries cannot benefit from HCFA’s
guidance if they do not know the information is available.




                                           6

                  RECOMMENDATIONS

We are aware that HCFA has implemented several initiatives to improve distribution
of existing publications. For example, HCFA has worked with the Social Security
Administration and the Assistant Secretary for Public Affairs to make HCFA
information more accessible to beneficiaries. However, awareness of the publications
has not improved.

HCFA is now considering the feasibility of mailing the Medicare Handbook to all
beneficiaries every year. Prior to 1996, the Medicare Handbook listed some of
HCFA’s publications and included an order form beneficiaries could use to obtain the
publications. However, this list and form has been deleted from the new handbook.
To contain the cost of mailing, HCFA cut the number of pages of the I996 Medicare
Handbook by revising the format and including fewer details.

We recommendthatHCFA

  .    continuecurrentefforts,as well as experiment    withnewmethods,to developa
       moreeffectivestrategyto increasebeneficiary    awarenessof theirpublications.
       For example, HCFA could distribute publications, or a listing of publications
       through offices of physicians and other health care providers.

  .    reinstatethelistingof HCFA publications
                                             in the Medicare Hundbook, and
       provideinstructionsin thehandbookon howbeneficiaries  canobtainthe
       publications.




                                           7

                   AGENCY                 COMMENTS

The Assistant Secretary for Planning and Evaluation concurred with our 

recommendations. 


The HCFA Administrator concurred with our recommendation that HCFA should 

continue efforts to develop a more effective strategy to increase beneficiary awareness. 

He reported that HCFA has established an Internet site that lists available 

publications, and includes the text of each publication. 


The Administrator did not concur with our recommendation to reinstate a listing of 

HCFA publications in the Medicare Handbook. He stated that HCFA believes the 

1996 handbook contains a better option by providing a State-by-state listing of 

Medicare carriers, insurance counseling offices, and other organizations beneficiaries 

can call through toll-free numbers to get publications. 


We still believe it would be useful to list the publications as we recommended. 

However, if that is not practical, we hope HCFA will consider mentioning in the 

handbook that publications are available on various topics, such as choosing a nursing 

home and Medigap insurance. Further, we suggest that the handbook inform 

beneficiaries that the publications are available from the organizations listed. If 

beneficiaries do not know the publications exist, they will not know to call these 

organizations to get copies. 


Appendix B contains the full text of HCFA’s comments. 





                                             8

                          APPENDIX                A

      RESPONSES To 1995SURVEY OF MEDICARE BENEFICIARIES
                        (942 Respondents)


Question                                                Percentage


1.   Where wouldyougo to get information
                                       aboutwhatMedicarepaysfor?

     The following are some places people might go to get answers if they have
     questions about what Medicare pays for. Check all the places you would go to
     find out what Medicare pays for.

     (IV = 908- NumberRespondingto Question)


     Your doctor’s office               632               70
     Friend or relative                 104               11
     AARP or other
      membership organization           126               14
     Insurance company that
      processes your Medicare claims    367               40
     Medigap insurance company          209               23
     Social Security office             299               33
     Local senior citizen’s group        58                6
     Insurance salesperson               27                3
     Medicare Handbook                  506               56
     Medicare Peer Review
      Organization                       38                4
     State’s Information, Counseling,
      and Assistance office              26                3
     Other                               40                4
      Not Answering: 28




                                        A-l
Question                           ReSponSeS         Percentage

2	   Listedbeloware Medicarebookletsthatyoucanobtainfree of charge.
     Pleasecheckthebookletsyouwere awareof beforetoday.

     Guide to Health Insurance
      for People with Medicare     249                26

     Guide to Choosing a
     Nursing Home                   69                 7

     Medicare Coverage for
     Second Surgical Opinion        67

     Medicare Hospice Benefits      75

     Medicare and Coordinu ted
      Cure Plans                    43

     Medicare and Other
     Health Benefits                173                18

     Medicare and Home Medical
      Equipment                     93                 10

     How to Help Medicare from
     Being Ripped Ofi               81                 9

      Number Who Checked One or More Publications:   405




3.   How manytimesin thepastyearhaveyouusedyourMedicareHandbook?
     (Checkm answer.)

     1 to 3 times                   202                23
     More than 3 times               53                 6
     I have not used the
       Medicare Handbook in
       the past year                410                46
     I do not know what the
       Medicare Handbook is          45                    5
     I do not recall receiving a
       Medicare Handbook            173                20
      Not Answering:   59


                                    A-2
Question                             ReSpOnSe!4   Percentage


4. 	   Do you think the M&are   Handbmk     is:
       (Checks     answer.)

       (N = 255- NumberWho Had Used Handbook)

       Very Helpful                    97          39
       Generally Helpful              135          55
       Generally Not Helpful           11           5
       Not Helpful                      3           1
        Not Answering: 9




                                      A-3 

 APPENDIX    B





HCFA COMMENTS 





       B-l
        DEPARTMENT   OF HEALTH    QLHUMAN   SERVICES                     Health Ca:e Financing    Administrztlon


                             ._                                                      ..                    -_

                                                                         The Adnir,ist:atar
                                                                         Washington,     O.C.   20201




               FEB - 9 1997
DATE:

FROM: 	      Bruce C.
             Administrator

S’C’BJECT: 	 Office of Inspector General (OIG) Draft Report: “Beneficiary Awareness
             of HCFA Publications in 1995,” (OJZI-04-93-00152)

TO: 	        June Gibbs Brown
             Inspector General


We reviewed the above-referenced report that examines Medicare beneficiary awareness
of nine Health Care Financing Adm.inistration publications.

Our detailed comments on the report recommendations are attached for your
consideration. Thank you for the opportunity to review and comment on this report.

Attachment
OIG Recommendation 

The Health Care Financing Administration (HCFA) should continue current efforts 3s 

well as cxpcl&cnt with new m&ods to dcvclop a more e11ective strategy t3 increase 

beneficiary awareness of its publications. For example, HCFA coutd distribute 

publications, or a listing of publications through physicians’ and health care providers’ 

offices. 



We concur. We took 3 number of actions in 1996 of which we are especially proud in 

light of the constraints placed on the Agency by both the tilough early in the year and 

the ongoing budget limitations. We distiibutcd a revised user-friendly v&on of the 

“Medicare Handbook” to ail bcncficiarics that was extensiveIy field-tested by a 

contractor prior to publication. Alternative formats of the “Medicare Handbook” for the 

visually-impaired (large-ptilt, braille, and audio cassette) were also made available. In 

addition, the publication was translated into Spanish and distributed. 


Other actions HCFA took to broaden public awareness of its publications are:

0	     Est3blished an Internet web site that not only announces the availability of
       publications but includes two versions, i.e., a text-only copy and the 3ctuaI copy
       that includes gr3phics.

0	     Implemented a “Publication Alert” announcement that is sent out to our partners,
       e.g., peer review organizations (PROS), intermediaries/carriers, in advance of the
       actual maiting of the publications.

0 	    Developed 3 more sophisticated computerized address maintenance system to
       distribute publication alerts and actual publications to our p~tilers who provide
       this information to the general public. The address lists include PROS and
       intermediaries/carriers, as well as end-stage renal disease networks, Insurance
       Counseling Assistance grantees, state agencies, consumer 3nd professional
       advocacy and support organizations, and the Social Security Adrninis&zion
       District Offices.
0 	   Continued efforts with the HCF?, On-Line activities as well as customer set\-ice
      pilots with contractors. We plan to focus on the results of the contractor senice
      pilots and share customer service best practices with at1 contractors.

0 	   Reached out to a wide variety of benefi&.ry advocacy groups. HCF.4 *andthe
      Administration on Aging funded elements oi the Aging Setwork and other
      dcparttncntal entities where constituencies overlap. As a result of this outreach,
      we increased our pr.esence and voice among this group and developed additional
      channels for distribution and feedback.

We bebeve the above efforts have produced measurable improvement in benefici,ary
awareness of HCFA publications.

OIG Recomme~
HCF.4 should reinstate the listing of HCFA publications in the “Medicare Handbook” 

and provide instructions on how to obtain tilem. 


HCFACornments 

We do not concur. We believe the 1996 “;Medicare Handbook” contains a better option. 

It provides a complete state-by-state listing of >Iedicare carriers, PROs, Medicare durable 

medical equipment regional carriers, and state insurance counseling offlces. Lnaddition, 

the “Medicare Handbook” also provides to11Eree l-800 numbers for both the general 

public and those who arc test telephone users. 

